No. 20-464

In the Supreme Court of the United States
JAMES ROSEMOND,
Petitioner,
v.
UNITED STATES,
Respondent.
On Petition For A Writ Of Certiorari To
The United States Court Of Appeals
For The Second Circuit
CERTIFICATE OF SERVICE
I, Michael Rayfield, counsel for Petitioner and a
member of the Bar of this Court, certify that on this
4th day of January, 2021, I caused three copies of this
Reply Brief in Support of Petition for a Writ of
Certiorari to be served by overnight mail and
electronic means on the following:
Soliciter General of the United States
Room 5616
Department of Justice
950 Pennsylvania Avenue N.W.
Washington, DC 20530-0001
supremectbriefs@usdoj.gov

I further certify that all parties required to be
served have been served.
s/ Michael Rayfield
Michael Rafield

